APPENDIX
PETITION FOR A WRIT OF CERTIORARI
George Berka,
Petitioner,
v..

Andrew M. Cuomo,
Respondent.

TABLE OF CONTENTS
2nd Circuit Court’s Denial of Appeal........................
Opinion of the New York District Court at Albany
Plaintiffs Original Complaint..................................

A1
A3
All

1. 2nd Circuit Court’s Denial of Appeal:

Case 21-308. Document44, 06/02/2021, 3112803, Pagel of 2
N.D.N.Y,
20-CV-516
Suddaby, CJ.
Stewart, M.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the Uni ted States Court of Appeals for the Second
Circuit* held at the Thurgopd Marshall United States Courthouse, 40 Foley Square,
In the City of New York, on the.2nd day of June, two thousand twenty-one.
Present:
Guido Calabresi,
Steven J. Menashi
Circuit Judges,

Denise Cote,
District Judge *
f Judge Denise Cote, of the United States District Court for the Southern D istrict of New York,
sitting by designation.

Page A1 of A14

Case 21-908, Document 44, 06/02/2021,3112803, Page2 of 2

George Berka,
Plaintiff-Appellant,
21-908

v.
Andrew M. Cuomo, both individually and in his official capacity,
Defendant-Appellee,

gHiiiiiiiilpl

on appeal); Knaust v. City ofKingston, 157 F.3d 86, 88 (2d Cir. 1998) (request for mjuncUve relief
moot when it “seeks to enjoin the future occurrence of events that are already in the past ).
Non-parties (which Appellant seeks to add and enjoin) move for leave to file a letter in opposition
to Appellant s requests. This motion has been docketed as a motion for leave to file an amicus

Upon due consideration, it is hereby ORDERED that the motion is GRANTED.
curiae brief.
See Fed. R. App. P. 29(a).
It is further ORDERED that the appeal is DISMISSED as moot, that the district court’s judgment
is VACATED, and the case is REMANDED with instructions to dismiss the action. See United
States v. Williams, 475 F.3d 468, 479 (2d Cir. 2007) (The Court has an “mdependent obligation
■ to consider whether an appeal is moot.); Bragger v. Trinity Capital Enter. Coip., 30 F.3d ,
(2d Cir 1994) (“When a civil case becomes moot while an appeal is pending, it is the gener
practice of an appellate court to vacate the unreviewed judgment granted in the court below and
remand the case to that court with directions to dismiss it.”).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

tf*CERTIFIED COPY ISSUED ON 06/02/2021

Page A2of A14

UNITED STATES DISTRICT COURT NORTHERN DISTRICT OF NEW YORK
GEORGE BERKA,
Plaintiff,
l:20-cv-0516 (GTS/DJS)
v.
ANDREW M. CUOMO (both individually and in his official capacity),
Defendant.
APPEARANCES:
. GEORGE BERKA Plaintiff, Pro Se
57 Concord Street
Waterbury, CT 06710
OF COUNSEL:
HON. LETITIA A. JAMES
Attorney General for the State of New York
Counsel for Defendant
The Capitol
Albany, NY 12224

JOSHUA M. TALLENT, ESQ.
Assistant Attorney General

GLENN T. SUDDABY, Chief United States District Judge
*■

DECISION and ORDER
Currently before the Court, in this environmental action filed by George Berka ("Plaintiff) against
Andrew M. Cuomo ("Defendant"), is Defendant’s motion to dismiss Plaintiff s Complaint for lack of
subject-matter jurisdiction and failure to state a claim pursuant to Fed. R. Civ. P. 12(b)(1) and (6).
(Dkt. No. 16.) For the reasons set forth below, Defendant’s motion is granted.
I.

RELEVANT BACKGROUND A. Plaintiffs Claims

Generally, liberally construed, Plaintiffs Complaint alleges that, between approximately January 8,
2017, and May 7, 2020, at the Indian Point Nuclear Plant (“Indian Point”) in Buchanan, New York,
Defendant wrongfully refused to grant Indian Point a permit to draw cooling water from the Hudson
River, thus causing the premature and permanent shut down of Units 2 and 3 Indian Point, from which
Plaintiff “likely” receives his power. {See generally Dkt. No. 1 [Plf.’s Compl.].) Based on these
factual allegations, the Complaint asserts two claims: (1) a claim under the National Environmental
Policy Act (“NEPA”), and (2) a claim under the Clean Air Act. {See generally Dkt. No.l [Plf.’s
Compl.].) Familiarity with these claims, and the factual allegations supporting them is assumed in this
Decision and Order, which is intended primarily for review by the parties. {Id.)

Page A3 of A14

B.

Parties’ Briefing on Defendant’s Motion

Generally, in support of his motion to dismiss, Defendant asserts the following four arguments: (1) to
the extent that the Complaint asserts claims for prospective injunctive relief against Defendant in his
official capacity, those claims (even if supported by factual allegations plausibly suggesting a viola ion
by Defendant of either NEPA or the Clean Air Act, which they are not) are barred by the Eleventh
Amendment, because the “real, substantial party in interest” in those claims is New York State and
thus the narrow exception provided by Ex Parte Young (for claims for prospective injunctive rehef)
does not apply; (2) to the extent that the Complaint asserts a claim under the Clean Air Act, its failure
to allege facts plausibly suggesting compliance with the Clean Air Act’s pre-suit notice requirement
deprives the Court of subject- matter jurisdiction over that claim; (3) in any event, even if the Court
were to have subject- matter jurisdiction over a claim asserted under NEPA, that claim should be
dismissed for failure to state a claim because NEPA applies only to federal agencies and not to state
agencies or officials; and (4) similarly, even if the Court were to have subject-matter jurisdiction over a
claim asserted under the Clean Air Act, that claim should be dismissed for failure to state a claim
because the Complaint identifies no violation of a concrete emission standard or limitation that is
enforceable in a citizen suit under the Clean Air Act. (See generally Dkt. No. 16, Attach. 2 [Def. s
Generally,'in'response to Defendant’s motion, Plaintiff asserts the following five arguments. (1) under
a Partiyoung, a claim for prospective injunctive relief against an official acting on behalf of a state
is permitted where, as here, the State acts contrary to federal law (and there is a sufficient distinction
alleged between the official’s interest and the state’s interest, which “there may be here); (2) although
it is true that the Complaint does not allege facts plausibly suggesting compliance with the Clean Air
Act’s pre-suit notice requirement, that requirement should be waived by the Court [gjiven the
seriousness of our climate crisis”; (3) even if Plaintiff s claim under NEPA were impermissible, his
claim under the Clean Air Act should still suffice to warrant the relief he requests, or at the very least a
claim would be permissible under New York State’s equivalent to NEPA (New York State
Environmental Quality Review Act or “SEQRA”); (4) Plaintiffs claim under the Clean Air Act is
actionable because it does indeed identify a violation of a concrete emission standard or limitation
under the Clean Air Act, specifically, the twelve-fold increase in carbon emissions that will be
generated in the region by the closure of Indian Point (and the reliance instead
power plants); and (5) regardless of the foregoing, the Court should grant Plaintiff a default judgm
against Defendant, because Plaintiff mailed his motion for default judgment to the Court on June
25, 2020, the day before Defendant filed his appearance (See generally Dkt. No. 18 LFlt. s
Opp’n Memo, of Law].)

333^3=335311=

the State from administering its own laws and regulations); (2) Plaintiff concedes that he failed to
comply with the Clean Air Act’s pre-suit notice requirement, which is jurisdictional (and may not be
waived); (3) to the extent that Plaintiff concedes that NEPA applies only to federal agencies and he
now relies on SEQRA, he may not constructively amend his Complaint by asser“§ a "^0™^
opposition memorandum of law and, even if he could do so, that new claim wouldnotbe ac
because it is subject a four-month limitations period (and here that period expired in May of 2017), and
Page A4 of A14

identify any specific standard or limitation that Defendant allegedly violated. (See generally Dkt. No.
19 [Def.’s Reply Memo, of Law].)
II.

RELEVANT LEGAL STANDARDS

Legal Standard Governing Motions to Dismiss for Lack of Subject-Matter
A.
Jurisdiction
A case is properly dismissed for lack of subject-matter jurisdiction under Fed. R. Civ. P.
12(b)(1) when the district court lacks the statutory or constitutional power to adjudicate it. Makarova v.
U.S., 201 F.3d 110, 113 (2d Cir. 2000) (citing Fed. R. Civ. P. 12[b][l]). It is the burden of the plaintiff
asserting subject-matter jurisdiction to prove, by a preponderance of the evidence, that it exists. Id.
When a court evaluates a motion to dismiss for lack of subject-matter jurisdiction, “all ambiguities
must be resolved and inferences drawn in favor of the plaintiff. Aurecchione v. Schoolman Transp.
Sys., Inc., 426 F.3d 635, 638 (2d Cir. 2005) (citing Makarova, 201 F.3d at 113).
B.

Legal Standard Governing Motions to Dismiss for Failure to State a Claim

It has long been understood that a dismissal for failure to state a claim upon which relief can be
granted, pursuant to Fed. R. Civ. P. 12(b)(6), can be based on one or both of two grounds: (1) a
challenge to the "sufficiency of the pleading" under Fed. R. Civ. P. 8(a)(2); or (2) a challenge to the
legal cognizability of the claim. Jackson v. Onondaga Cnty., 549 F. Supp.2d
204, 211, nn.15-16 (N.D.N.Y. 2008) (McAvoy, J., adopting Report-Recommendation on de novo
review).
Because such dismissals are often based on the first ground, some elaboration regarding that ground is
appropriate. Rule 8(a)(2) of the Federal Rules of Civil Procedure requires that a pleading contain "a
short and plain statement of the claim showing that the pleader is entitled to relief." Fed. R. Civ. P.
8(a)(2) [emphasis added],, In the Court’s view, this tension between permitting a “short and plain
statement” and requiring that the statement “show[]” an entitlement to relief is often at the heart of
misunderstandings that occur regarding the pleading standard established by Fed. R. Civ. P. 8(a)(2).
On the one hand, the Supreme Court has long characterized the “short and plain” pleading standard
under Fed. R. Civ. P. 8(a)(2) as "simplified" and "liberal." Jackson, 549 F. Supp.2d at 212, n.20 (citing
Supreme Court case). On the other hand, the Supreme Court has held that, by requiring the abovedescribed "showing," the pleading standard under Fed. R. Civ. P. 8(a)(2) requires that the pleading
contain a statement that "give[s] the defendant fair notice of what the plaintiff s claim is and the
grounds upon which it rests." Jackson, 549 F. Supp.2d at 212, n:l7 (citing Supreme Court cases)
(emphasis added).
:

-

:i

,

The Supreme Court has explained that such, fair notice has,tlieimportant purpose of “enabling] the
adverse party to answer and prepare for trial” and “facilitating] a proper decision on the merits” by the
court. Jackson, 549 F. Supp.2d at 212, n.18 (citing Supreme Court cases); Rusyniak v. Gensini, 629 F.
Supp.2d 203, 213 & n.32 (N.D..N.Y, 20Q9).(Suddaby, J.) (citing Second Circuit cases). For this reason,
as one commentator has correctly observed, the ‘‘liberal” notice pleading standard "has its limits." 2
Moore ’s Federal Practice § 12.34[l][b] at 12-61 (3d ed. 2003). For example, numerous Supreme
Court and Second Circuit decisions exist holding that a pleading has failed to meet the “liberal” notice
Page A5 of A14

pleading standard. Rusyniak, 629 F. Supp.2d at 213, n.22 (citing Supreme Court and Second Circuit
cases); see also Ashcroft v. Iqbal,
129S.CI. 1937, 1949-52(2009).

..

-i ■

.

Most notably, in Bell Atlantic Corp. v. Twombly, the Supreme Court reversed an appellate decision
holding that a complaint had stated an actionable antitrust claim under 15
„ . r
USC § 1 Bell Atlantic Corp. v. Twombly, 127 S. Ct. 1955 (2007). In doing so, the Court retire[ ]
the famous statement by the Court in Conley v. Gibson, 355 U.S. 41, 45-46 (1957) thatj’a complaint
should not be dismissed for failure to state a claim unless it appears beyond doubt that the plaintiff can
prove no set of facts in support of his claim which would entitle him to relief." Twombly, 111 S. Ct. at
1968-69. Rather than turn on the conceivability of an actionable claim, the Court clarified, the fair
notice" standard turns on the plausibility of an actionable claim. Id. at 1965-74. The Court explained
while this does not mean that a pleading need "set out in detail the facts upon which [the claim is
that,
based]," it does mean that the pleading must contain at least "some factual allegation^]." Id. at 1965.
More specifically, the "[factual allegations must be enough to raise a right to relief above the
speculative level [to a plausible level]," assuming (of course) that all the allegations m the complaint
3XQ true Id.
As for the nature of what is “plausible,” the Supreme Court explained that “[a] claim has facial
plausibility when the plaintiff pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal,
129 S Ct 1937, 1949 (2009). “[Determining whether a complaint states a plausible claim for relief..
. [is] a context-specific task that requires the reviewing court to draw on its judicial experience and
common sense. . . . [W]here the well-pleaded facts do not permit the court to infer more than the mere
possibility of misconduct, the complaint has alleged-but it has not show[n]-that the pleader is entitled
to relief.” Iqbal, 129 S. Ct. at 1950 [internal quotation marks and citations omitted]. However, while ^
the plausibility standard “asks for more than a sheer possibility that a defendant has acted unlawfully,
id., it “does not impose a probability requirement.” Twombly, 550 U.S. at 556
Because of this requirement of factual allegations plausibly suggesting an entitlement to relief , toe
tenet that a court must accept as true all of toe allegations contained in the complaint is inapplicable to
legal conclusions. Threadbare recitals of the elements of a cause of action, supported by merely
conclusory statements, do not suffice.” Iqbal, 129 S. Ct. at 1949.
■
...
Similarly a pleading that only “tenders naked assertions devoid of further factual enhancement will
not suffice. Iqbal, 129 S. Ct. at 1949 (internal citations and alterations omitted). Rule 8 “demands
more than an unadorned, toe-defendant-unlawfully-harmed-me accusation.” Id. (citations omitted).
Finally, a few words are appropriate regarding what documents are considered when a dismissal for
failure to state a claim is contemplated. Generally, when contemplating a dismissal pursuant to Fed. R.
Civ. P 12(b)(6) or Fed. R. Civ. P. 12(c), the following matters outside toe four comers of toe
complaint may be considered without triggering the standard governing a motion for summary
judgment: (1) documents attached as an exhibit to the complaint or answer, (2) documents incorporated
by reference in the complaint (and provided by the parties), (3) documents that, although not
incorporated by reference, are “integral” to the complaint, or (4)
2
y
matter
of
which
the
court
can
take
judicial
notice
for
the
factual
background
of
toe
case.
an

Page A6 of A14

G.

■Legal-Standards Governing Plaintiffs Claims

Because the parties to this action have demonstrated, in their memoranda of law, an accurate
understanding of the relevant points of law contained in the legal standards governing Plaintiff s
claims, the Court will not recite, in their entirety, those legal standards in this Decision and Order,
which (again) is intended primarily for review by the parties.
(See generally Dkt. No. 16, Attach. 2 [Def.’s Memo, of Law]; Dkt. No. 18 [Plf.’s Opp’n Memo, of
Law]; Dkt. No. 19 [Def.’s Opp’n Memo, of Law].)
III.

ANALYSIS

Whether the Court Lacks Subject-Matter Jurisdiction Over Plaintiffs
A.
Claims

.

-

•

■

After carefully considering the matter, the Court answers this question in the affirmative for the
reasons stated in Defendant’s memoranda of law. (Dkt. No. 16, Attach. 2 [Def.’s Memo, of Law]; Dkt.
No. 19 [Def.’s Reply Memo, of Law].) To those reasons, the Court adds only three points.
First, Plaintiff is correct that Ex Parte Young permits an exception to the general bar of federal court
jurisdiction over claims against a State or against a state official acting in his or her official capacity
who is violating or plans to violate federal law. Armstrong v. Exceptional Child Ctr., Inc., 575 U.S.
320, 326-27 (2015). However, this exception is narrow and applies only where the relief sought is
prospective and not compensatory or otherwise retrospective. Ex Parte Young, 209 U.S. 123, 155-56
(1908) (explaining that officers of the state “may be enjoined by a Federal court of equity” when
attempting to enforce against parties an “unconstitutional act”). Moreover, applied correctly, Young
would not permit a federal-court action to proceed in every case where prospective declaratory relief is
sought against an official acting in his or her official capacity. See Va. Office for Prot. & Advocacy v.
Stewart, 563 U.S. 247, 253-54 (2011) (“[Ajbsent waiver or valid abrogation, federal court may not
entertain a private person’s suit against a State.”). The Supreme Court explained that such an action
would undermine the very principle which the Eleventh Amendment relies, which is to impose a “real
limitation” on a federal court’s jurisdiction. Vci. Office for Prot. & Advocacy, 563 U.S. at 270
(Roberts, C.J., dissenting) (quoting Idaho v. Coeur dAlene Tribe of Idaho, 521 U.S. 261, 270 [1997]).
“The general rule is that relief sought nominally against [a State] officer is in fact against the sovereign
if the decree would operate against the latter.” Hawaii v. Gordon, 373 U.S. 57, 58 (1963); accord,
Pennhurst State Sch. v. Halderman, 465 U.S. 89, 101 (1984). In this case, although Plaintiff argues
that “there may be” a sufficient distinction alleged between Defendant’s interest and New York State’s
interest to avoid the application of the Eleventh Amendment, he has failed to allege facts plausibly
suggesting that such a distinction exists here.
. ,
Second, even if the Eleventh Amendment were not to bar the Court from exercising jurisdiction here,
Plaintiffs failure to provide adequate notice as required by the Clean Air Act would prevent the Court
from entertaining that claim. The Clean Air Act’s plain language clearly requires pre-suit notification
by a plaintiff, which must occur sixty days prior to the commencement of any action under the statute.
42 U.S.C. § 7604(b)(l)-(2). The Clean Air Act is not unique in its mandatory pre-suit notification
requirement for citizen-suits; nor is the mandate a flexible one. As the Supreme Court made clear in
Hallstrom v. Tillamook Cty., “Because this language is expressly incorporated by reference ... it acts
Page A7 of A14

as a specific limitation on a citizen’s right to bring suit. Under a literal reading of the statute,
compliance with the.60„
day notice provision is a mandatory, not optional,.condition,precedent for suit. 493 U.S. 20, 26
(1989). “[A] district court may not disregard these requirprnents at its discretion. Hallstrom,
493 U.S. at 31. Although Hallstrom concerned the citizen-suit provision of the Resource Conservation
and Recovery Act, the Clean Air Act expressly includes an identical 60-day notification requirement
that the Supreme Court already declared to be a mandatory condition
precedent that Plaintiff must fulfil before filing this action, Hallstrom, 493 U.S. at 26.
Despite Plaintiffs desire for the Court to make an exception to this requirement, there is no precedent
to support his position that the Court can ignore federal law. Id. at 27. “The equities do not weigh in
favor of modifying statutory requirements when the procedural default is caused by petitioners failure
to take the minimal steps necessary’ to preserve their claims.” Id. The rationale that militates against a
Court-granted waiver of pre-suit notice is to serve the ultimate goals Congress had when it created the
requirement, which is to strike a balance between “encouraging citizen suits and avoiding burdening
the federal courts with excessive numbers of suits” and, most importantly, to allow government
agencies to cure violations without the need for litigation. Id. The Court notes that it has been unable
to find any cases waiving this requirement under the Clean Air Act.3 Furthermore, even if waiver
were permissible, the Court would not find it appropriate here.
In following Hallstrom and its progeny, the Court narrowly construes the notice provisions of
environmental statutes as a jurisdictional prerequisite. Roe v. Wert, 706 F. Supp.
788, 792 (W.D. Okla. 1989). Even in extreme cases, such as those concerning pollution by
hazardous substances, the mandate for requiring pre-suit notification does not falter. 42 U.S.C. §
6972(b)(1)(A) (“[Sjuch action may be brought immediately after such notification”). Because the
requirement is jurisdictional, a plaintiff must plead compliance with the requirement to state a claim.
“[T]he giving of a 60-day notice is not simply a desideratum; it is a jurisdictional necessity. Ctr. For
Biological Diversity v. Marina Point Dev. Co., 566 F.3d 794, 800 (9th Cir.
2009).
Here, because Plaintiff failed to plead facts plausibly suggesting that he has afforded Defendant the 60day notice required by the plain language of the statute, he has failed to meet a mandatory condition
precedent to maintain a citizen-suit in federal court, and the Court thus lacks subject-matter jurisdiction
over Plaintiffs Clean Air Act claim. Nat'l Parks & Conservation Ass'n, Inc. v. Tennessee Valley Auth.,
502 F.3d 1316, 1329 (11th Cir. 2007); Envtl. Integrity Project v. United States Envtl. Prot. Agency, 160
F. Supp. 3d 50’, 55 (D. D.C. 2015).
......................... ,
, •
u
U1 . ,.
Third, even setting aside the two above-described jurisdictional pitfalls, the Court has trouble finding
that Plaintiff has standing, given the speculative nature of his alleged injury. (See, e.g., Dkt. No. 1, at 3
[Plf.’s Compl., alleging that he “likely receives power from the Plant”]; Dkt. No. 18, at 5 [Plf. s Opp n
Memo, of Law, arguing that he is “very likely” a consumer].)
Whether, in the Alternative, Plaintiffs Claims Should Be Dismissed Because
B.
He Failed to State a Claim Upon Which Relief Can Be Granted
After carefully considering the matter, the Court answers this question in the affirmative for the
reasons stated in Defendant’s memoranda of law. (Dkt. No. 16, Attach. 2 [Def.’s Memo, of Law], Dkt.
No. 19 [Def.’s Reply Memo, of Law].) To those reasons, the Court adds only three points.

Page A8 of A14

First.-NEPA- imposes, -environmental obligations on federal agencies, not on the several states or their
executive officers. 42 U.S.C. § 4331(a). Although the statute provides that federal agencies should ■—
seek cooperation from the several states in maintaining environmental standards, such cooperation by
the states is not required by law under NEPA: “[I]t is the continuing responsibility of the Federal
Government... to improve and coordinate Federal plans. ■. . .” Id. at § 4331(b) (emphasis added).
Here, were the Court to find that Plaintiffs Complaint sufficiently alleges a violation under NEPA
(which the Court does not), such a claim could not
,r
be sustained against a state agency or official. Because Plaintiffs Complaint is directed against the
Governor of New York (in both his individual and official capacity), Plaintiff fails to state an
actionable claim under NEPA. Fed. R. Civ. P. 12(b)(6).
Second, despite the fact that Defendants have failed to appreciate the breath of the special solicitude
afforded to pro se civil rights plaintiffs (which permits them to constructively amend their complaint,
in certain circumstances, through an opposition to a motion to dismiss), Plaintiff has nevertheless failed
to state a claim due to his failure to abide by the four-month statute of limitations. Where a plaintiff is
proceeding pro se, factual assertions in the plaintiffs opposition to a motion to dismiss may be
considered and treated as an amendment to the complaint, if those factual assertions are consistent with
those of the complaint. Holmes v. Fresh Direct, 13-CV4657, 2015 WL 4885216, at *3 (E.D.N.Y. Aug. 5, 2015) (citing Rosales v. Kikendall, 605 F. App’x 12,
15 [2d Cir. 2015]). Here, as a threshold matter, the Court has difficulty finding the new factual
allegations even consistent with those of Plaintiffs detailed Complaint. In any event, Plaintiff has
failed to explain, let alone even address, why the four-month statute of limitations period has been
complied with or should be tolled, given the new factual allegations. For these reasons, the Court finds
the defects in Plaintiffs NEPA claim (and proposed SEQRA claim) substantive and not merely formal
such that better pleading would not cure them.
Third, Plaintiffs claim under the Clean Air Act does not cite a specific violation, emission standard or
limitation set by the Clean Air Act. Granted, Plaintiff relies on his allegation of a twelve-fold increase
in carbon emissions that would be generated in the region by the closure of Indian Point (and the
reliance instead on natural-gas-fired power plants). (Dkt. No. 1, at 4.) However, even setting aside the
attenuated causal link between this alleged increase and the closure of Indian Point, Plaintiff fails to
allege any facts plausibly suggesting what particular emissions standard or limitation of the Clean Air
would be violated by the alleged increase (and the Court has trouble identifying one).
Finally, the Court denies Plaintiffs request for. a default judgment for two reasons: (1) that request is
moot, given the Court’s dismissal of his claims, and (2) in any event,; that request was denied on July
13, 2020. (Dkt. No. 15.)
For all of these alternative reasons, the Court finds that Plaintiffs claims are dismissed.
<:'

ACCORDINGLY, it is
ORDERED that Defendant’s motion to dismiss (Dkt. No. 16) is GRANTED: and it is further
ORDERED that Plaintiffs Complaint (Dkt. No. 1) is DISMISSED.
Dated: March 26, 2021
Syracuse, New York

Page A9 of A14

;998W^^
(McAvoy, C.J.).

2

.

See Fed. R. Civ. P. 10(c) (“A copy of any written instrument which is an exhibit to a pleading is a part thereof

MltwL213?734(2d 3/'June 1, 2011) (explaining that conversion from a motion to dismiss forfailure to state a ^
claim to a motion for summary judgment is not necessary, under Fed. R. Civ. P. 12[d] if the matters outside the plea mgs
in consist of [1] documents attached to the complaint or answer, [2] documents incorporated by reference in the compl l
(and provided by the parties), [3] documents that, although not incorporated by reference, are ‘ integral to the complaint, or
[4] any matter of which the court can take judicial notice fomhejactual
consklering aofdi*smirsTl
background
the case);pursuanTto
DiFolco v.F^^^iv^^^fb^V'may (mn^idM^the^fac^aheg^in|the com^l^nt^docun^^J0^

complaint it must be clear on the record that no dispute exists regarding the authenticity or accuracy of the document. It
must also be clear that there exist no material disputed issues of fact regarding *e relevance of the document. )
[internal quotation marks and citations omitted]; Chambers v. Time Warner, Inc., 282 F.3d 1 ,,
152 (2d Cir 2009) (‘The complaint is deemed to include any written instrument attached to it as an exhibit or any
statements or documents incorporated in it by reference”) (internal quotation marks and citations omitted); Int l Audiotext
Network Inc. v. Am. Tel. & Tel. Co., 62 F.3d 69, 72 (2d Cir.1995) (per curiam) (“[W]hen a plaintiff chooses not to attach to
the complaint or incorporate by reference a [document] upon which it solely relies and which is integral to the complain ,
the court may nevertheless take the document into consideration in deciding [a] defendant s motion to dismiss, without
converting the proceeding to one for summary judgment.”), (internal quotation marks and citations omitted).

3
Although there was a split of authority amongst U.S. Circuit Courts regarding the strictness in which Courts
should construe the pre-suit notice requirements of various environmental statutes, this split was resolved by Hallstrom.
Before Halls from some circuits adopted the “pragmatic/functional doctrine” which found subject-matter jurisdic ion
despite the lack of pre-suit notice by one of three factors: (1) determining not,ce-in-fact; (2) staying
notice time had run; or (3) finding notice was procedural rather than jurisdictional. Proffitt v. Commissioners, 754 F.
504 506 (3rd Cir 1985) (Federal Water Pollution Control Act (“FWPCA”), and RCRA); Hempstead County & Nev County
Project v U.S.E.P.A., 700 F.2d 459, 463 & n. 5 (8th Cir. 1983) (RCRA); Susquehanna Valley Alliance v. Three Mile Island
Nuclear Reactor, 619 F.2d 231, 243 (3rd Cir.1980), cert, denied, 449 U.S.
1096 (1981) (National Environmental Policy Act); Natural Resources Defense Council, Ina v. Callaway, 524 F.2d 79, 8384(2ndCir.1975,
Air Act). However, the
instead
endorsed the jurisdictional prerequisite doctrine, which is the approach taken by the Court here.

Page A10 of A14

doctrine,and

■3^-Blaintif£s Original Complaint:
George Berks
57 Concord St.
Waterbury, CT 06710
(203)681-7035 1
gberka57@comcast.net
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK

Case No.: 20-cv-^16

George Berka,
Plaintiff,

PLEADING TITLE ■

vs.
ANDREW M. CUOMO, (BOTH INDIVIDUALLY AND IN HIS ,
' OFICIAL CAPACITY),
Defendant

COMES NOW GEORGE BERKA, pro-se Plaintiff, and for cause of action states, alleges, and complains as follows:
PARTIES
I.
1.1 George Berka, the Plaintiff, resides in Waterbury, New Haven County, Connecticut.
1.2 Governor Andrew M. Cuomo is currently the Governor of the State of New York, with his
office located in Albany, New York.
JURISDICTION AND VENUE
II.
2.1 Jurisdiction and venue are proper in the United States District Court for the Northern
' District of New York, because.the property which is the subject of this action, the,Indian
Point Nuclear Power Plant, is located in New York State, because this action is between a
private citizen and a government entity (the Governor of New York), and because the
parties in this action reside in separate states (Connecticut and New York).
2.2 Nuclear Matters and the Hobbs Act: The Plaintiff is a\A/are of the provision that certain
nuclear matters are generally appealed directly to the Federal Appeals Court, per the
Hobbs Act. However, the Plaintiff believes this rule to apply mainly to "more direct"
nuclear matters, such as appeals from decisions of the Nuclear Regulatory Commission.
This is a dispute between the Governor of the State of New York and a private citizen from
Connecticut, about certain "obstructionist efforts" on the part of the Governor's Office,
such as the denial of water permits from the Hudson River, that helped bring about the
closure of the Plant. (The Nuclear Regulatory Commission is not a party to this action.)
For this reason, the Plaintiff believes that this matter does not belong in the Federal
Appeals Court, and that this Court is the proper jurisdiction and venue.
III.
FACTUAL BACKGROUND
3.1 The Indian Point Nuclear Power Plant, (hereafter known as the "Plant" or as "Indian
Point"), had been in operation since about 1976, and used to supply about 25% of the

Page All of A14

electricity used by New York City and its surrounding area, all of it carbon-free. It is likely
that some of this electricity is also used by homes and businesses in neighboring
Connecticut. .(See S.E.C. Docket 866, Volume 46, No. 11, which states that the "New
England region, as a whole, is more closely connected electrically to New York than to any
other adjoining.state or Canadian province, and that it relies heavily on new York utilities
[and power plants] to provide power directly to New England when it cannot be supplied
by utilities within New England". Power is transferred through a 345 kilovolt
interconnection between Pleasant Valley, New York, and New Milford, Connecticut,
among others.)
.
3.2 One of the Plant's two reactors shut down at the end of April of 2020, with the other
reactor scheduled to close within a year. After the Plant ceases operations, its output is
expected to replaced primarily by natural gas fired generation, which will cause local and
regional carbon emissions to increase.
3.3 Next, since the Plant is able to operate reliably in cold temperatures, and to maintain an
extended fuel supply on site, the Plant helps to protect New York and New England home
owner's from extreme weather events, such as the polar vortex. During events of extreme
cold such as this, natural gas is often prioritized for home heating, leading to a reduction in
its availability for electrical generation.. Not only does this cause the price of electricity to
spike, but the negative impacts of this can be more than economic, and may even put New
York and New England home owners at risk. During the 2016 polar vortex, for example,
certain oil supplies had to be delivered by truck and barge to supply the oil-fired peaker
power plants in New England. Frozen rivers made oil delivery by barge problematic in
some cases, leaving trucks as the only viable option. In areas where roads where obscured
by ice, snow, or accidents, a few plants actually came perilously close to running out of
fuel, which could have resulted in power outages. During prolonged periods of such
extreme cold, power outages may even be life-threatening, since many home heating
systems also need electricity to operate. This is just one example of how having a power
plant such as Indian Point on line helps guard against exactly these types of events; it's
2060- megawatt, continuous electrical output helps ensure a steady supply of electricity,
freeing up natural gas to be used primarily for home heating, without fear of creating
power outages. Hence, it may be reasonably argued that the loss of Indian Point will make
not only the local and regional electrical grid, but also the local and regional energy supply
in general, less reliable, and less tolerant of extreme weather events.
3.4 Standing. The.plaintiff believes that he has standing in this matter because, as a New
England home owner, he is a potential end user of Indian Point's power; i.e., some of the
power from Indian Point flows to the Plaintiff's home through the shared electrical grid
between New York and New England. Also, since it is not fueled by natural gas, Indian
Point helps to protect the Plaintiff during extreme weather events, such as the Polar
Vortex,
IV.
AGRUMENT
4.1 Nature of Relief Requested: The Plaintiff hereby seeks to give Entergy, the current owner
of Indian Poipt, or any future owner, a free and unobstructed opportunity to continue
operating the-Plant, as it. has done in the past. The,Plaintiff seeks to have Mr. Andrew
Cuomo, the Governor of the State of New York, and his Office, along with any future
governors, enjoined from interfering with the continued operation of Indian Point, for a
period of twenty-five calendar years from the date of this Complaint. Interference in
this context may be interpreted as, (but not limited to), any number of actions seeking to

Page A12 of A14

______ thwart or halt the continued operation of the Plant, such as the denial of a permit to draw
cooling water foFThe~Pta'nt-from-the-HudsQn-£i.v£r. In short, the Plaintiff seeks to have the
Plant be solely under the jurisdiction and authority of the Nuclear Regulatory Lommissisnr
as it has. been. If the N.R.C. approves the extension of the Plant's operating license, the
Plant should be permitted to continue to operate, free from local interference and
obstructionism.
4.2 Applicable Law: The Plaintiff brings his Claim in accordance with the National
Environmental Policy Act, U.S. Code Title 42, Chapter 55,. Paragraph 4321. In genere I,
when a nuclear power reactor closes, it is typically replaced with natural gas fired
electrical generation, which produces much higher air pollution and carbon dioxide
emissions than the nuclear source that it replaced: This situation runs counter to the
spirit and intent of Paragraph 4321, which aims to: "declare a national policy which
will encourage productive and enjoyable harmony between man and his environmet t; to
promote efforts which will prevent or eliminate damage to the environment and
biosphere and stimulate the health and welfaredf man." Given the fact that the carbon
dioxide emissions of this new natural gas plant are about 60% of those of an equivalent
coal plant, (up from the mere 5% or so that the nuclear plant used to generate),
replacing shuttered nuclear plants with natural gas fired plants is definitely a step
backwards from a climate standpoint. Also* in light of the now well - understood link
between carbon emissions and global warming, the importance of Paragraph 4321 takes
on a whole new meaning; lowering carbon dioxide levels in the atmosphere (not ra sing
them) is a necessary step to "prevent or eliminate damage to the environment and
biosphere and stimulate the health and welfare of man". Keeping the ultra - clean, and
virtually carbon - free, nuclear generating stations on - line is one way to help
accomplish this step. In addition to Paragraph 4321 above, the Plaintiff also cites the
Clean Air Act, U.S. Code Title 42, Chapter 85, Subchapter I, Part A, Paragraph 7401.
Sections (a)(2) and (c) of this paragraph also apply; "the growth in the amount and
complexity of air pollution brought about by urbanization, industrial development, and
the increasing use of motor vehicles, has resulted in mounting dangers to the public
health and welfare, including injury to agricultural crops and livestock, damage to and
the deterioration of property, and hazards to air and ground transportation." This does
apply to the rising levels of carbon dioxide in the atmosphere, which are likely to
endanger public health and welfare, injure agricultural crops and livestock, and damage
property, through rising air temperatures, which will likely cause melting ice sheets,
rising ocean levels and coastal flooding, along with more severe wild fires, hurricanes,
and droughts. We have witnessed many of these events first hand in recent years.
Next, Section (c) also applies; i.e., "Aprimary goal Of this chapter is to encourage or
otherwise promote reasonable Federal,State, and local governmental actions, consistent
with the provisions of this chapter, for pollution prevention." Promoting the continued
operation of nuclear generating stations would certainly constitute an action that
would help prevent pollution.
4.3 Likelihood of Success on the Merits: There is now a well understood and generally
accepted causal link between carbon emissions and global warming, which is projected to
threaten the existence and well-being of man;through events such as more severe
droughts, vyild fires and hurricanes, as well as rising sed levels, fresh water shortages,
habitat destruction, the extinction of endangered sjaecies, and reduced crop yields, among
others. We have recently witnessed many of these events first hand, such as Hurricane

Page A13 of A14

Sandy, which flooded parts of Manhattan and New Jersey. All of our existing assets should
be utilized to combat the threat of climate change and global warming.
4.4 Due to their unique ability to consistently provide large quantities of carbon-free
electricity, around the clock, for months and even years at a time, existing nuclear power
plants are some of our most potent tools in our struggle against climate change. Keeping
existing nuclear power plants in service, and perhaps even returning previously shuttered plants into service, may be significantly more economical than building new
nuclear plants, or attempting to replace the lost capacity with renewable sources, such as
wind and solar. It may take less time to accomplish in certain cases as well.
4.5 Prematurely shutting down carbon-free electrical power sources, such as nuclear power
plants, and replacing them with carbon-emitting electrical power sources, such as natural
gas fired power plants may be considered "a step backwards from a climate standpoint,
and should be' avoided. It also runs counter to the National Environmental Policy Act, U.S.
Code Titie 42, Chapter 55, Paragraph 4321, as mentioned above.
4.6 Irreparable Harm: If global temperatures continue to rise, they may place the Plaintiff and
his fellow New Englanders in increased risk of losing his home to extreme weather events
such as hurricanes. Next, for the reasons explained in Paragraph 3.3 above, the Plaintiff
and his fellow New Yorkers and New Englanders may be endangered by an over-reliance
on natural gas fired electrical generation in a region.prone to prolonged periods of
extreme cold, such as the Polar Vortex. Finally, it should also be mentioned that shutting
down a reliable electrical generator in the middle of a national health emergency such as
the corona virus epidemic is not wise, may needlessly endanger patients' lives, and should
be avoided.
4.7 Balancing of the Equities: In cases such as these, the Court should exercise its discretion in
favor of the party "most likely to be injured". The party "most likely to be injured" in this
is the Plaintiff, along with thousands of his fellow home owners across the New York
C3S6
City and New England region, who depend on the Plant's continued, reliable power . The
Governor of the State of New York, however, is not likely to be injured at all by having his
efforts to close the Plant over-ridden. Moreover, preservation of this Plant will result in
the return of a valuable, income-generating asset which will benefit the Town of Buchanan
and the local community.
V.
CONCLUSION
In light of the above, the Plaintiff hereby respectfully requests this Court to over-ride any
of Governor Cuomo's actions to close the Indian Point Nuclear Power Plant, and to permit
this Plant'to continue operating in an unobstructed manner for the next 25 calendar years.

Dated this 30th Day of April, 2020

.

George Berka
Plaintiff, Pro-Se

Page A14 of A14

Case 21-908, Document 59, 07/06/2021, 3132232, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 6th day of July, two thousand twenty-one,
Present:

Guido Calabresi,
Steven J. Menashi,
Circuit Judges,
Denise Cote,
District Judge.*

ORDER
Docket No. 21-908

George Berka,
Plaintiff - Appellant,
v.
Andrew M. Cuomo, both individually and in his official
capacity,
Defendant - Appellee.

Appellant George Berka filed a motion for reconsideration and the panel that determined
the motion has considered the request.
IT IS HEREBY ORDERED, that the motion is denied.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

* Judge Denise Cote, of the United States District Court for the Southern District of New York,
sitting by designation.

